<html>
<title> - DEPLOYED FEDERAL CIVILIANS: ADVANCING SECURITY AND OPPORTUNITY IN AFGHANISTAN</title>
<body><pre>[Senate Hearing 111-607]
[From the U.S. Government Publishing Office]



                                                        S. Hrg. 111-607

   DEPLOYED FEDERAL CIVILIANS: ADVANCING SECURITY AND OPPORTUNITY IN 
                              AFGHANISTAN

=======================================================================

                                HEARING

                               before the

                  OVERSIGHT OF GOVERNMENT MANAGEMENT,
                     THE FEDERAL WORKFORCE, AND THE
                   DISTRICT OF COLUMBIA SUBCOMMITTEE

                                 of the

                              COMMITTEE ON
                         HOMELAND SECURITY AND
                          GOVERNMENTAL AFFAIRS
                          UNITED STATES SENATE


                     ONE HUNDRED ELEVENTH CONGRESS

                             SECOND SESSION

                               __________

                             APRIL 14, 2010

                               __________

       Available via http://www.gpoaccess.gov/congress/index.html

       Printed for the use of the Committee on Homeland Security
                        and Governmental Affairs








                  U.S. GOVERNMENT PRINTING OFFICE
57-324 PDF                WASHINGTON : 2010
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001









        COMMITTEE ON HOMELAND SECURITY AND GOVERNMENTAL AFFAIRS

               JOSEPH I. LIEBERMAN, Connecticut, Chairman
CARL LEVIN, Michigan                 SUSAN M. COLLINS, Maine
DANIEL K. AKAKA, Hawaii              TOM COBURN, Oklahoma
THOMAS R. CARPER, Delaware           SCOTT P. BROWN, Massachusetts
MARK L. PRYOR, Arkansas              JOHN McCAIN, Arizona
MARY L. LANDRIEU, Louisiana          GEORGE V. VOINOVICH, Ohio
CLAIRE McCASKILL, Missouri           JOHN ENSIGN, Nevada
JON TESTER, Montana                  LINDSEY GRAHAM, South Carolina
ROLAND W. BURRIS, Illinois
EDWARD E. KAUFMAN, Delaware

                  Michael L. Alexander, Staff Director
     Brandon L. Milhorn, Minority Staff Director and Chief Counsel
                  Trina Driessnack Tyrer, Chief Clerk


  OVERSIGHT OF GOVERNMENT MANAGEMENT, THE FEDERAL WORKFORCE, AND THE 
                   DISTRICT OF COLUMBIA SUBCOMMITTEE

                   DANIEL K. AKAKA, Hawaii, Chairman
CARL LEVIN, Michigan                 GEORGE V. VOINOVICH, Ohio
MARY L. LANDRIEU, Louisiana          SCOTT P. BROWN, Massachusetts
ROLAND W. BURRIS, Illinois           LINDSEY GRAHAM, South Carolina
EDWARD E. KAUFMAN, Delaware

                     Lisa M. Powell, Staff Director
               Joel C. Spangenberg, Deputy Staff Director
             Jennifer A. Hemingway, Minority Staff Director
           Sean M. Stiff, Minority Professional Staff Member
                      Aaron H. Woolf, Chief Clerk













                            C O N T E N T S

                                 ------                                
Opening statements:
                                                                   Page
    Senator Akaka................................................     1
    Senator Kaufman..............................................    13

                               WITNESSES
                       Wednesday, April 14, 2010

Hon. John Berry, Director, U.S. Office of Personnel Management...     3
Ambassador Patrick Kennedy, Under Secretary for Management, U.S. 
  Department of State............................................     5
Hon. Clifford Stanley, Under Secretary for Personnel and 
  Readiness, U.S. Department of Defense..........................     7
Janet St. Laurent, Managing Director, Defense Capabilities and 
  Management, U.S. Government Accountability Office..............     8

                     Alphabetical List of Witnesses

Berry, Hon. John:
    Testimony....................................................     3
    Prepared statement...........................................    29
Kennedy, Ambassador Patrick:
    Testimony....................................................     5
    Prepared statement...........................................    34
Stanley, Hon. Clifford:
    Testimony....................................................     7
    Prepared statement...........................................    40
St. Laurent, Janet:
    Testimony....................................................     8
    Prepared statement...........................................    62

                                APPENDIX

Background.......................................................    79
Responses to questions submitted for the Record:
    Mr. Berry....................................................    88
    Ambassador Kennedy...........................................    90
    Dr. Stanley..................................................    99

 
                 DEPLOYED FEDERAL CIVILIANS: ADVANCING
                        SECURITY AND OPPORTUNITY
                             IN AFGHANISTAN

                              ----------                              


                       WEDNESDAY, APRIL 14, 2010

                                 U.S. Senate,      
              Subcommittee on Oversight of Government      
                     Management, the Federal Workforce,    
                            and the District of Columbia,  
                      of the Committee on Homeland Security
                                        and Governmental Affairs,  
                                                    Washington, DC.
    The Subcommittee met, pursuant to notice, at 2:34 p.m., in 
room 342, Dirksen Senate Office Building, Hon. Daniel K. Akaka, 
Chairman of the Subcommittee, presiding.
    Present: Senators Akaka and Kaufman.

               OPENING STATEMENT OF SENATOR AKAKA

    Senator Akaka. I call this hearing of the Subcommittee on 
Oversight of Government Management, the Federal Workforce, and 
the District of Columbia to order.
    I want to welcome our witnesses and thank you so much for 
being here today. I have heard from so many people and I was 
really surprised at the interest there is in the subject of the 
hearing today, and so I am so glad to have all of you here this 
afternoon.
    Today's hearing, ``Deployed Federal Civilians: Advancing 
Security and Opportunity in Afghanistan,'' will review the 
readiness of and support for Federal employees who serve our 
Nation overseas.
    I know that civilians serving in harm's way proudly answer 
the call of duty and are motivated by a strong sense of 
patriotism. We must ensure that they have the training and 
support that they need.
    Under President Obama's strategy for Afghanistan, as the 
United States works to destroy al-Qaeda, the Nation also is 
working to build the capacity of the Afghan government and 
bring new opportunities to its people. The sharp increase in 
Federal civilian employees in Afghanistan is supporting this 
effort. Secretary of State Hillary Rodham Clinton has testified 
that almost 1,000 civilians would be in Afghanistan by early 
2010. A further increase of 20 to 30 percent is expected by the 
end of this year. In addition, nearly 1,600 civilians are 
deployed there in support of the Department of Defense's 
operations.
    Civilians are essential to carrying out the mission in 
Afghanistan. The long-term efforts to improve governance, 
promote economic development, and fight corruption and the 
narcotics trade are necessary to the success of the military's 
mission of providing security and combating terrorism. The 
State Department expects our civilians to continue their work 
with the Afghan government and people after the departure of 
our combat troops.
    The State Department and the Defense Department (DOD) have 
begun focusing greater attention on civilian readiness for 
operations in combat zones. DOD has developed comprehensive 
pre-deployment training for its civilian personnel who serve in 
Afghanistan under the authority of United States Central 
Command (USCENTCOM). Likewise, the State Department has 
required courses for personnel from the State Department as 
well as other Federal agencies who will serve under the 
Ambassador's authority. This includes hands-on operational 
training where persons of Afghan background orient trainees to 
Afghan customs and where civilians get a feel of the 
environment they will face in Afghanistan.
    Military personnel also participate in the training to 
educate civilians on the combined civilian-military efforts in 
Afghanistan. I am pleased that DOD and the State Department 
have made training a priority and are committed to ensuring 
that civilian employees are ready for the challenges they will 
face.
    We also must support the civilians during and after their 
service. In June 2009, the Government Accountability Office 
(GAO) reviewed the compensation and benefits for civilians 
serving in combat zones. GAO found that agencies should work to 
ensure that compensation and benefits are appropriate and 
comparable among civilians, that deployed civilians receive all 
of the medical benefits and compensation to which they are 
entitled, and that agencies maintain sufficient data to inform 
civilians about emerging health issues that might affect them.
    GAO's primary recommendation was for Office of Personnel 
and Management (OPM) to lead an interagency effort to address 
pay and benefit differences. I am eager to hear more about the 
progress made since GAO issued its report, especially in 
assisting civilians in receiving the medical support that they 
need.
    In my role as Chairman of the Veterans Affairs Committee, I 
have been very concerned about the invisible wounds of war, 
including traumatic brain injury and post-traumatic stress 
disorder (PTSD). Many civilians are exposed to the same hazards 
our military personnel face while deployed to areas of 
conflict. I believe that all Federal civilians need to be 
screened properly for these wounds upon their return and 
provided the benefits to which they are entitled.
    I understand that OPM, working with the State Department, 
DOD, and other Federal agencies, has developed a legislative 
proposal to ensure that pay and benefits are more consistent 
for deployed civilians, which I hope to learn more about.
    I look forward to hearing from our witnesses today.
    I want to again welcome our panel of witnesses to the 
Subcommittee today: Hon. John Berry, the Director of the Office 
of Personnel Management; Ambassador Patrick Kennedy, the Under 
Secretary of State for Management; Hon. Clifford Stanley, the 
Under Secretary of Defense for Personnel and Readiness; and 
Janet St. Laurent, the Managing Director of Defense 
Capabilities and Management at the Government Accountability 
Office.
    As you all know, it is the custom of this Subcommittee to 
swear in all witnesses, so I would ask all of you to please 
stand and raise your right hand.
    Do you swear that the testimony you are about to give 
before this Subcommittee is the truth, the whole truth, and 
nothing but the truth, so help you, God?
    Mr. Berry. I do.
    Ambassador Kennedy. I do.
    Dr. Stanley. I do.
    Ms. St. Laurent. I do.
    Senator Akaka. Thank you. Let it be noted in the record 
that the witnesses answered in the affirmative.
    Before we start, I want you to know that your full 
statements will be part of the record, and I would also like to 
remind you to please limit your oral remarks to 5 minutes. We 
have looked at your written statements and look forward to 
working together with you on some of the issues.
    Director Berry, will you please proceed with your 
statement?

   TESTIMONY OF HON. JOHN BERRY,\1\ DIRECTOR, U.S. OFFICE OF 
                      PERSONNEL MANAGEMENT

    Mr. Berry. Mr. Chairman, it is always an honor and a 
pleasure to be back here with you, and I send you much aloha 
from your friends at the Office of Personnel Management. We 
appreciate the opportunity to testify before you today on 
deployed Federal civilian employees in areas of armed conflict. 
We have all been working very hard on this issue and we look 
forward to sharing with you the results of our effort.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Berry appears in the Appendix on 
page 29.
---------------------------------------------------------------------------
    At any one time, there are approximately 6,100 Federal 
civilian employees that are deployed to areas of armed 
conflict, working directly in support of our warfighters. 
Providing consistent, comprehensive, and competitive benefits 
must be part of our overall effort to support our troops and 
our mission in Iraq, Afghanistan, as well as other combat 
areas.
    As you know, Mr. Chairman, GAO recommended that all of us 
come together through an interagency process to find a solution 
to some of the inconsistent compensation and benefit issues 
that have plagued civil servants in combat zones for years. 
Following that recommendation, OPM chaired a working group with 
the Departments of Defense, State, and Labor, and we are very 
pleased to say that we have developed a joint legislative 
proposal that has cleared the Office of Management and Budget, 
and after a few final tweaks, we will be sending up very 
shortly to the Subcommittee that will, we believe, iron out 
many of these inconsistencies.
    We appreciate very much the contributions and hard work of 
our partners and staff, and I want to thank all of them for 
their diligence and leadership, especially Secretary Kennedy 
and Secretary Stanley. They have just been outstanding to work 
with, as well as our colleagues at the Labor Department. Our 
proposal has cleared the interagency review process and we will 
be getting it to you as soon as possible.
    One of the biggest issues we faced in convening the working 
group was that the compensation and benefits available to 
Federal employees in combat areas were temporary and 
inconsistent. Our goal was to change that. This led us to a 
central recommendation in the proposal to convert temporary 
legislation for a higher premium pay cap, waiver of the 
aggregate pay cap, and use of certain Foreign Service Act 
provisions into permanent legislation.
    We further recommend providing locality pay to civilians 
serving in Iraq, Afghanistan, and other zones of armed 
conflict. Locality pay would apply to employees on temporary 
duty as well as permanent assignment. D.C. locality pay would 
be the floor, with employees on temporary duty being able to 
receive higher locality pay if their current locality pay 
should exceed D.C.'s. So, for example, San Francisco is higher, 
Mr. Chairman. They would still be entitled to receive that 
higher rate of pay. But everyone would at least receive the 
D.C. locality adjustment if they were serving.
    Along with a number of other provisions to enhance leave 
and benefit options, we believe that this is a very 
comprehensive solution that will make a real difference in 
recognizing the hardships and sacrifices associated with 
serving in zones of armed conflict.
    We have addressed the biggest complaints about inequities 
in the applicability of certain authorities, such as locality 
pay, health assessments, and caps on premium pay and aggregate 
compensation. We can't address all of the differences through 
the legislative proposal.
    For example, as in Washington, D.C. right now, we have 
three basic pay systems. We have Foreign Service pay, military 
pay, and civilian pay. There are always going to be those 
differences. We are not pretending to have one pay system. So 
there will always be differences, and this proposal will 
recognize that.
    In addition, we have tried to achieve an optimal balance 
between the mandatory and discretionary provisions. All of the 
discretionary authorities, such as extension of the Foreign 
Service Act allowances, benefits, and gratuities, will be 
subject to government-wide regulations issued by a single 
agency as prescribed within the proposal. We believe that not 
all of the provisions need to be mandatory in statute. 
Discretion allows OPM, the State Department, and DOD to foster 
consistency and fairness in implementation across agencies, but 
also allow flexibility as things change over time.
    For example, the cost of death benefits or movement, cost 
of fuel or things like that are things that we ought to adjust 
based on the market, and if we set those in the law, it will be 
very hard to keep current with the situation. So we are 
proposing in the proposal to maintain some flexibility, but we 
want to ensure that it is applied consistently.
    That is a brief highlight of what we have done, Mr. 
Chairman. We look forward to working with you as we form and 
shape up this proposal and look forward to answering any 
questions that you or the Subcommittee might have.
    Senator Akaka. Thank you very much, Director Berry. You 
have touched on a number of the problems that have been 
mentioned.
    Ambassador Kennedy, will you please proceed with your 
statement?

TESTIMONY OF AMBASSADOR PATRICK KENNEDY,\1\ UNDER SECRETARY OF 
              MANAGEMENT, U.S. DEPARTMENT OF STATE

    Ambassador Kennedy. Thank you very much, Mr. Chairman and 
Senator Kaufman. Dedicated men and women from the State 
Department are working around the world and around the clock to 
advance our national interest. The safety and welfare of these 
personnel are a top priority for the State Department, 
Secretary Clinton, and me.
---------------------------------------------------------------------------
    \1\ The prepared statement of Ambassador Kennedy appears in the 
Appendix on page 34.
---------------------------------------------------------------------------
    Our global mission and operations have always required 
people to live and serve overseas. However, the breadth and 
depth of world issues continues to grow and our mission is 
expanding. Two-thirds, or 184 of our State Department posts 
currently are designated as hardships. More than 900 positions 
are classified at posts that are unaccompanied or partially 
unaccompanied because of dangerous conditions, an increase from 
just 200 in 2001. In addition, civilians now serve directly 
alongside their deployed military service counterparts in 
numerous locations in Iraq and Afghanistan.
    Throughout the past 8 years, the Department has reviewed 
its practices and constantly incorporated lessons learned from 
Iraq and Afghanistan to refine our assignments, processes, and 
programs, augment its training for deployed civilians, provide 
additional support to family members, and established a more 
robust medical support network. We explored alternative models 
of addressing the expanding foreign policy mission, and with 
support from the Congress, created Civilian Response Corps 
(CRC) in 2008 that can deploy quickly to support reconstruction 
and stabilization operations.
    We appreciate the efforts of the Office of Personnel 
Management in bringing together the State and Defense 
Departments, and on key issues the Labor Department, to jointly 
begin developing a standard benefit package that will enable 
civilians from all agencies serving in combat zones to be 
treated equitably.
    Our missions in Afghanistan and Iraq have always been fully 
staffed with volunteers. The Department is, in turn, focused on 
ensuring that these volunteers are prepared, trained, 
compensated, and supported before, during, and after their 
assignments.
    The package of benefits includes the maximum hardship and 
danger pay allowance allowed by law, and with the exception of 
political appointees or members of the senior services, 
employees receive overtime or comparable payment for the long 
hours that they work. Employees are also offered Rest and 
Recuperation trips during their assignments. They can choose 
either to come to the United States or to go elsewhere. And we 
have supported legislation that increased the annual premium 
cap and eliminated the aggregate pay cap.
    We have established specific incentives for the Foreign 
Service. For example, our Selection Boards take their service 
in dangerous locations into consideration.
    We are also very much mindful of the support we must 
provide family members. Our Family Liaison Office addresses 
these specific challenges and we have expanded that office in 
order to assist families, including a 7-day-a-week, 24-hour 
hotline that assists them.
    Training is incredibly important. We offer courses at our 
own National Foreign Affairs Training Center and we work in 
conjunction with our Department of Defense colleagues. We 
provide a 1-week mandatory security program, a 1-week Afghan 
civilian familiarization program, and all employees who will be 
outside of Kabul in the provinces or areas take an additional 2 
weeks of training, including a course run in conjunction, as 
you noted, Mr. Chairman, with the Department of Defense, this 
at Camp Atterbury in Indiana. This integrated training ensures 
that our personnel are able to work with their Defense 
Department colleagues from the moment they hit the ground.
    As you also noted, civilians serving in combat zones are 
exposed to greater stress levels. We facilitate this by working 
with the inherent conditions and we ensure that there are 
mandatory pre-departure sessions. There are post-departure 
sessions, as well. We engage in follow-up, and our Medical 
Division, led by Dr. Thomas Yun, who is accompanying me, have 
this as one of their primary missions, to make sure that our 
employees receive all the care on scene and follow-up that they 
need.
    The Medical Director has established a Deployment Stress 
Management Program which follows the individuals and also has 
deployed psychologists, social workers, and backup 
psychiatrists to service our personnel in both Iraq and 
Afghanistan. And employees who are identified as possibly 
suffering from stress-related disorders are treated in 
Washington or near their home stations, if required. We have 
excellent cooperation from the Department of Defense and access 
to military medical facilities if they have specialized 
training and treatment available that would not be available in 
the normal civilian world.
    We have also established a Civilian Response Corps that is 
composed of specialists from the State Department and other 
agencies around the government to be able to deploy personnel 
to work in conjunction with our deployed troops around the 
world.
    Our civilian employees and their families deserve 
comprehensive support before, during, and after their overseas 
assignment. This need is particularly great for those serving 
at our most difficult and dangerous posts. We recently 
remembered at a memorial service in the Department a colleague, 
Terry Barnich, who was killed when his vehicle struck an 
improvised explosive device in Iraq, and we have also recently 
mourned the loss of Victoria DeLong, who died in her country's 
service in the earthquake in Port au Prince. Reinforcing the 
Department's commitment to providing benefits and programs to 
support our employees and their families as they serve our 
Nation around the globe is our primary responsibility.
    Thank you very much, Mr. Chairman.
    Senator Akaka. Thank you very much, Ambassador, for your 
statement.
    Now, I would like to call on Dr. Stanley for your 
statement.

  TESTIMONY OF HON. CLIFFORD STANLEY,\1\ UNDER SECRETARY FOR 
      PERSONNEL AND READINESS, U.S. DEPARTMENT OF DEFENSE

    Dr. Stanley. Thank you, Mr. Chairman and Senator Kaufman. I 
want to thank you on behalf of the Secretary of Defense, Robert 
M. Gates. I would like to really express our appreciation for 
inviting us here to testify and to appear today to discuss the 
Department's efforts to build an improved and reliable 
capability with the Department of Defense's civilian workforce 
that is ready, trained, and cleared to support DOD operations, 
contingencies, emergencies, humanitarian missions, stability, 
reconstruction operations, and combat operations.
---------------------------------------------------------------------------
    \1\ The prepared statement of Dr. Stanley appears in the Appendix 
on page 40.
---------------------------------------------------------------------------
    First, let me emphasize that the Department of Defense has 
a long and proud history of civilians supporting our U.S. Armed 
Forces and military operations around the world. The structure 
of the Armed Forces is based on the Total Force concept, which 
recognizes that all elements of that structure are actually 
part of our active duty personnel--reservists, defense 
contractors, host nation military, civilian personnel, and 
DOD's Federal civilian employees. They contribute to our 
national defense.
    My testimony today will focus on the Civilian Expeditionary 
Workforce capability, the Department's initiatives to 
effectively train and prepare the civilians for expeditionary 
missions in Afghanistan, the support provided to our civilians 
in Afghanistan, proposed legislation to codify and standardize 
benefits for Federal civilian employees while serving in a 
designated zone of armed conflict, and the Department's actions 
to address the Government Accountability Office 
recommendations.
    I have submitted my written testimony for the record but 
would like to highlight some areas to facilitate our dialogue. 
As the Subcommittee has specifically asked about Afghanistan, I 
will focus my discussion on the critical role our DOD civilians 
have and continue to provide during Operation Enduring Freedom.
    This year, we hope to obtain the most far-reaching and 
comprehensive benefits package for Federal civilians to date. 
Our Department, the Office of Personnel Management, the 
Department of State, and the Department of Labor have worked in 
partnership to develop an important legislative proposal which 
will provide more uniformity and transparency to the pay and 
benefits of our deployed civilians.
    For example, the draft proposal would establish special 
leave benefits, recuperation leave to provide employees respite 
from working in a designated zone of armed conflict, and 
readjustment leave following deployment to provide employees 
time to rest and to attend to personal matters. It would also 
establish a pre- and post-deployment health assessment program 
in each agency for deploying civilians consistent with 
regulations prescribed by the Secretary of Defense or the 
Secretary of State.
    The Department takes seriously its obligation to protect 
the health of all deployed civilians. DOD civilians are 
eligible for health care treatments and services in military 
treatment facilities at no cost and at the same level and scope 
provided to military personnel. The Department also recognizes 
that it may be the only in-theater provider of emergency 
medical care for non-DOD civilians, perhaps with the exception 
of the Department of State, which may have some medical 
capabilities. So the Department of Defense has clarified its 
policy on access to military treatment facilities for non-DOD 
Federal civilians, both while in theater and when following 
deployment.
    Simply stated, DOD provides emergency care in theater and 
military treatment facilities until the employee is stabilized 
and discharged, and as the Under Secretary of Defense for 
Personnel and Readiness, I can under certain circumstances 
allow for continuing care in our military treatment facilities 
past the point of medical stabilization. Like our DOD 
employees, however, other Federal employees must have an 
approved Department of Labor, Office of Workers Compensation 
claim for specific deployment-related illnesses, disease, or 
injury to be eligible for continuing care in a military 
treatment facility. Other factors that I consider include 
whether the military treatment facility has special or unique 
expertise in treating the injury, disease, or illness of the 
employee, and if the military treatment facility has the 
capability and capacity to treat the employee's specific needs. 
A determination is made on a case-by-case basis.
    In conclusion, I want to thank you again for your 
unwavering support of our Federal civilians who deploy in 
support of our mission around the world. Deployed civilian 
employees are essential to the Federal Government's ability to 
meet its mission requirements in Iraq, Afghanistan, and other 
designated zones of armed conflict. With your help, we have 
been able to offer critical incentives and benefits to our 
Federal civilian employees serving in Afghanistan and Iraq.
    So I look forward to your questions and am looking forward 
to talking with you today.
    Senator Akaka. Thank you very much, Dr. Stanley, for your 
testimony.
    And now I will call on Ms. St. Laurent for her testimony.

 TESTIMONY OF JANET ST. LAURENT,\1\ MANAGING DIRECTOR, DEFENSE 
  CAPABILITIES AND MANAGEMENT, U.S. GOVERNMENT ACCOUNTABILITY 
                             OFFICE

    Ms. St. Laurent. Thank you very much, Mr. Chairman and 
Senator Kaufman. We very much appreciate the opportunity to 
discuss GAO's work on actions needed to better track and 
provide compensation and medical benefits to deployed Federal 
civilians.
---------------------------------------------------------------------------
    \1\ The prepared statement of Ms. St. Laurent appears in the 
Appendix on page 62.
---------------------------------------------------------------------------
    As DOD has expanded its involvement in overseas military 
operations, it has grown increasingly reliant on its civilian 
workforce to provide support. Other Federal agencies also play 
an important role in these efforts, particularly in light of a 
needed whole of government approach. This has highlighted the 
need for greater attention to the policies and benefits that 
affect the health and welfare of deployed civilians.
    The six agencies covered in our review included the 
Departments of Defense, State, Homeland Security (DHS), 
Agriculture (USDA), Justice, and United States Agency for 
International Development (USAID). We reviewed laws, policies, 
and guidance, and interviewed officials at OPM and the six 
agencies. Also, we conducted a generalizable sample of 
civilians deployed to Iraq and Afghanistan between January 2006 
and April 2008.
    I would like to briefly summarize our key findings, 
recommendations, and agency actions to date in three areas: 
First, compensation policies for deployed civilians; second, 
medical care; and third, tracking of deployed civilians.
    First, although policies concerning compensation are 
generally comparable across agencies, we identified several 
issues that affect the amount and timeliness of compensation 
received by deployed civilians. Specifically, we found that an 
estimated 40 percent of the deployed civilians we surveyed 
reported experiencing some problems with compensation, such as 
receiving timely or accurate payment for items such as danger 
pay or overtime. We also found that deployed civilians with 
similar situations could receive somewhat different 
compensation and benefits. For example, employees with 
comparable salaries can receive a different rate of overtime 
pay if they are on different pay systems, even though they may 
be working side-by-side. Also, agencies have had significant 
discretion regarding whether individuals are deployed in 
temporary duty status or in a permanent change of station 
status, and these decisions can lead to differences in 
compensation, sometimes considerable.
    We therefore recommended that OPM oversee an executive 
agency working group to address differences, and if needed, 
develop an action plan or make legislative recommendations. OPM 
generally agreed with our recommendations and informed us that 
an interagency group was in the process of developing proposals 
for needed legislation. We are pleased to see, today, that the 
Executive Branch has collaborated on a package of proposals to 
enhance consistency in pay and benefits, although we have not 
yet had the opportunity to review the details.
    Second, we identified several issues with medical care 
following deployment. For example, while DOD allows its 
treatment facilities to care for non-DOD civilians following 
deployment in some cases, the circumstances were not clearly 
defined and some agencies were unaware of DOD's policy. Since 
our report was issued, DOD has established and communicated 
additional guidance on how non-DOD civilians can access DOD 
medical services. This is a positive step.
    We also found that DOD was not consistently implementing 
its post-deployment medical screening process and that the 
State Department, unlike DOD, did not have post-deployment 
screening. We have found that documenting the medical condition 
of personnel both before and after deployment is critical to 
identifying medical conditions that may result from deployment. 
Accordingly, we recommended that DOD establish procedures to 
ensure its post-deployment screening requirements are fully 
completed. DOD agreed with our recommendations and has 
developed some additional guidance.
    We also recommended that the State Department establish 
post-deployment screening requirements. The State Department 
agreed with our recommendation and we have not yet seen 
documentation on the action it has taken, but we look forward 
to seeing documentation as they develop their process.
    Third, while each of the six agencies involved in our 
review provided us with a list of deployed civilians, none had 
fully implemented policies and procedures to systematically 
track civilians. DOD, for example, had procedures to identify 
and track civilians but concluded in internal memoranda that 
its guidance was not being consistently implemented. Other 
agencies had to manually search their systems to meet our 
requests for data on the number of civilians deployed. Thus, 
agencies may lack critical information on the location of 
personnel, which could hamper their ability to address emerging 
health issues.
    We therefore recommended that DOD better enforce its 
tracking requirements and that the five other agencies 
establish tracking procedures. DOD and four agencies concurred 
with our recommendations. However, USAID disagreed, stating 
that its current system is adequate. We continue to believe 
that all six agencies need to move forward with specific 
concrete steps to develop and improve a tracking system.
    In sum, our report made 10 recommendations for agencies to 
take actions. Most agencies generally concurred with our 
recommendations and have taken some steps. However, further 
concrete actions are needed to promote greater consistency 
across the agencies, and again, we welcome the package of 
legislative proposals that will be forthcoming and look forward 
to reviewing it.
    Thank you very much.
    Senator Akaka. Thank you very much, Ms. St. Laurent.
    I will ask some questions here to our panel, and then we 
will have Senator Kaufman make any statement he wishes to make 
and have him ask you his questions.
    Director Berry, I am looking forward to seeing more details 
of the legislative proposal that you outlined in your 
testimony, and I am pleased that many of the issues raised by 
GAO will be addressed in this proposal. According to GAO's 
testimony, at the time of GAO's review, DOD officials stated 
that proposals from the working group would not represent a 
comprehensive benefits package. Do you believe that the 
proposal you outlined is comprehensive and will ensure 
consistent benefits for all Federal civilian employees deployed 
to combat zones?
    Mr. Berry. Thank you, Mr. Chairman. Yes, it is my opinion, 
and I will let Ambassador Kennedy and Secretary Stanley speak 
for themselves, but the Administration believes that this is a 
very comprehensive approach. We have tried to tackle each and 
every issue in terms of pay and benefit inconsistencies that 
were in existence and address them in the proposal that you 
will be receiving. So I think it has been a great team effort. 
There has been give and take, but we have all worked from the 
perspective that all of these folks are putting themselves in 
harm's way and we really need to treat them with fairness and 
consistency, and this proposal will do just that, sir.
    Senator Akaka. Thank you, Mr. Berry.
    Ms. St. Laurent, let me ask, do you have anything that you 
would like to add to this question?
    Ms. St. Laurent. Well, first, thank you very much, Mr. 
Chairman. Again, we view it as a positive step that the 
Administration will be forthcoming with a package of proposals. 
We look forward to seeing the details of those proposals. Just 
based on some of the information and the testimonies that you 
are receiving today, it appears that some of the issues that 
were outlined in our report and for which we made 
recommendations are included in the package.
    For example, establishment of a pre- and post-deployment 
health assessment program of each agency would be very 
positive, and if implemented would certainly help to address 
some of the issues that we cited. In other places, for example, 
the discussion about locality pay entitlements appears to be 
somewhat consistent and deal with some of the issues we 
addressed. For example, we pointed out that individuals who are 
deployed in a permanent change of station situation are not 
entitled to locality pay and therefore they have a lower base 
from which danger pay and overtime and other sorts of pays are 
calculated.
    So again, we would like to see more of the details, but we 
do see just from this preliminary information that we have 
today that it appears the package would address some of the 
issues that we have raised in our work.
    Senator Akaka. Thank you.
    Director Berry, according to GAO, many deployed civilians 
have experienced problems with receiving the correct 
compensation in a timely manner, in part because they do not 
know what they are eligible for or where to go for assistance. 
What has OPM done to ensure that this information is easily 
accessible?
    Mr. Berry. Mr. Chairman, I think part of that problem was 
the existence of the temporary and often inconsistent 
application of pay authorities depending on where the person 
was coming from and what their agency was. And what we hope 
this proposal will do is provide that level of consistency. So 
though the base pay in terms of--there will still be variation 
between the Foreign Service schedule, the General Schedule 
(GS), and active military schedules. But now we will be 
providing the locality pay adjustment consistently across the 
board to all covered civilians and working through from there.
    The other thing I can commit to you is there are 
essentially four agencies in the government that provide the 
payroll function--DOD, USDA, the Department of Interior, and 
the General Services Administration (GSA). Once this proposal, 
which we hope is adopted by the Congress and signed into law, 
we will be able to have all of those pay systems consistent so 
that the accuracy and the timeliness with which people are 
paid, we believe will significantly increase.
    Obviously, employees should be receiving the full benefits 
they are entitled, and if somebody has been handled 
erroneously, we will work to correct that with that payroll 
agency. But I think this way going forward puts us on a very 
strong ground, Mr. Chairman, because it levels the playing 
field, makes it consistent, and it is a lot easier for those 
payroll agencies to administer consistently.
    Senator Akaka. Thank you very much.
    Ambassador Kennedy and Dr. Stanley, under the legislative 
proposal, the Secretary of State, in coordination with the 
Secretary of Defense, could designate an area where there are 
exceptional levels of armed violence as a designated ``zone of 
armed conflict.'' This would trigger the availability of 
certain pay and benefits to employees. Which areas do you 
anticipate would be designated as zones of armed conflict and 
how severe would armed violence have to be to warrant this 
designation?
    Ambassador Kennedy. If I might go first, I think at the 
moment, Mr. Chairman, I would see Iraq and Afghanistan being 
the two immediately designated zones of armed conflict. Under 
the standardized regulations for government civilian service 
abroad, which is administered by the Secretary of State, we 
already have in place provisions for hardship pay and danger 
pay. I think that will cover almost any other current situation 
in the world. Whether it is Xanadu or Shangri-La, we can take 
care of those specific circumstances. But it is the unique 
conditions in Iraq and Afghanistan, where you have civilian 
employees working alongside, literally, their military 
colleagues which call for special consideration.
    Senator Akaka. Dr. Stanley.
    Dr. Stanley. Mr. Chairman, I was thinking about that even 
as you were asking the question. I am not going to differ from 
what my colleague is saying, but I would also like to take the 
question for the record because I think that there are some 
areas to that that I don't know where some of those exception 
areas would be other than Iraq and Afghanistan. But our world 
situation could be changing while we are sitting here and I 
would just like to confer with not only our Chairman and 
military, but also with colleagues to further refine that.
    Senator Akaka. Thank you very much. We will certainly want 
it for the record and we look forward to that. Thank you, Dr. 
Stanley.
    Ms. St. Laurent, GAO's June 2009 report on deployed 
civilians included 10 recommendations to the agencies to 
improve benefits. Your testimony today and the June report 
raised many areas that need to be addressed concerning 
compensation and medical benefits for deployed civilians. Of 
your recommendations, what do you think should be the agency's 
top priority?
    Ms. St. Laurent. Thank you, Mr. Chairman. I would say there 
are really three areas. The first recommendation that we 
thought was extremely important was for the Office of 
Management and Budget (OMB) to work with the other agencies and 
come up with a concrete set of proposals for potential changes, 
and again, based on today's testimony, it appears that has been 
done and the specific language will soon be forthcoming.
    Second, we think it is very important to develop good and 
rigorous tracking systems in each of the agencies to be able to 
identify deployed civilians over time. Again, as we did our 
work, we had to work very closely with the agencies and they 
had to do numerous data calls to be able to identify deployed 
civilians. We were able to eventually get a universe from which 
we could pull a sample, but it was challenging at times, so we 
recognize that there is a need for further improvements there. 
It is particularly important if, in some of these regions, 
health issues emerge and the agencies need to be able to 
contact individuals that have deployed. So while some of the 
agencies are making progress in that area, they need to further 
refine what is going to be the data system of record to be able 
to provide good, accurate data on deployed civilians and then 
to implement that consistently.
    And the third area would be in the medical post-deployment 
screening. And again, the Department of Defense is doing that. 
We surveyed individuals, though, and found out about 21 percent 
of the individuals in our survey had not gone through a post-
deployment screening. And then the State Department at the time 
of our review had not established procedures, so we believe 
they and the other agencies also need to put those processes in 
place.
    Senator Akaka. Thank you very much, Ms. Laurent.
    I would like to now call on Senator Kaufman for any 
statement and questions that he has. I know he has a deep 
interest in the issues raised in this hearing. Senator Kaufman.

              OPENING STATEMENT OF SENATOR KAUFMAN

    Senator Kaufman. Thank you, Mr. Chairman. I want to thank 
you for holding this hearing. It is really important.
    I just got back from my third trip to Pakistan, 
Afghanistan, Iraq, and, when you go there and you see what a 
great job our military and civilian folks are doing over 
there--and they really are doing a great job--you have just got 
to wonder about are we taking care of them and are we showing 
them how much we really care about it.
    And I know that especially at the State Department and DOD, 
we have employees all around the world, not just in Iraq and 
Afghanistan, who are in harm's way, who have to put up with 
there isn't a mall on every street corner. You don't get to do 
a lot of things. There isn't a 27-film metroplex. So this is 
really important.
    And I must say, the morale of everybody I met on these 
trips has been great, but there is a question that comes up all 
the time about benefits and how all that works and some concern 
about those things. Mr. Chairman, the timing on this is great 
and I am glad to hear we are going to have a report directly on 
this thing because this is something that we have to make sure 
that the people feel like they are getting the standard 
benefits in uniform, they are not working side-by-side with 
somebody.
    I would like to start off and say, is there any 
consideration at all--one of the things I do hear a lot about 
is contractors working next to military and civilian personnel, 
getting, X-times as much money and having this much benefits 
and that benefits. Is there any discussion about--and again, I 
want to say the accomplishment of having a proposal that works 
to deal with this problem is great, so it is kind of like once 
you get one thing, you are waiting for the next thing. But I 
must admit, it is something you do hear a lot about, not 
necessarily in a negative sense, just concern, these 
considerations. Is there any consideration for the fact that 
contractors seem to be getting much greater pay and benefits?
    Dr. Stanley. I haven't heard any--I have not discussed 
that, Senator, and I am going to have to look into that 
question. I have been focusing primarily on DOD and, of course, 
on the civilian personnel----
    Senator Kaufman. Yes.
    Ambassador Kennedy. If I could, Senator, in our contracting 
procedure, we obviously try to drive the best bargain for the 
American taxpayer.
    Senator Kaufman. Right.
    Ambassador Kennedy. That is obviously, though, depending 
upon the bid. It is very difficult to compare them because many 
contractors, or the employees of contractor companies will work 
120 straight days----
    Senator Kaufman. Right.
    Ambassador Kennedy [continuing]. And they have no leave 
built into that. So it seems that their salary is very high for 
that 120 days, but when then they go off, they literally get 
paid nothing----
    Senator Kaufman. Yes.
    Ambassador Kennedy [continuing]. For the month or two that 
they are back in the United States on what would be paid leave 
if you were a government employee. There is obviously, chow-
hall talk about that in many places----
    Senator Kaufman. Yes.
    Ambassador Kennedy [continuing]. And we do try to make sure 
that the pay and benefits to contractors represent the best 
value to the U.S. Government.
    Senator Kaufman. And again, what you have done so far is 
Herculean. If we can get that done, that will be enough. But I 
am just raising it because, as you say, that is the perfect 
thing--chow hall, that is where you hear it. You are sitting at 
lunch with a serviceman--I visit with servicemen from Delaware 
and others every time I go over there, and by the way, there is 
a guy next to me, retired military, he has his pension and 
everything else but he is getting X-number of dollars to do 
what I am doing. So anyway, it was one of the things I am 
concerned about.
    Look, the other thing I am kind of concerned about is, it 
is clear to me that what Admiral Mullen, Secretary Gates, and 
other leaders says, and as long as we maintain our capability, 
no one is going to take us on in a conventional war, no one. 
And so what is going to happen is people more and more are 
going to take us on in battles--cyberspace is an example--
economically. But the main thing we are going to deal with is 
these insurgencies, and we are probably going to deal with 
these insurgencies for the rest of my lifetime.
    And I think much smarter people than me have come up with a 
counterinsurgency strategy which I am in awe of, not just that 
we have a counterinsurgency strategy and people can figure it 
out, but how successful it has been in Iraq and how successful 
I think it is in Afghanistan.
    And I also think, Ambassador Kennedy, this is an incredible 
opportunity to deal with one of the problems I see, and that is 
the imbalance between--no disrespect--but between how many 
folks we have at the Department of Defense ready to straighten 
things out once there is a mistake and how many folks we don't 
have at the Department of State making sure we don't have these 
things develop, and I think no one says it better than 
Secretary Gates when he talks about the number of employees in 
the Army bands and how many Foreign Service officers that there 
are.
    So there is an imbalance here and counterinsurgency is an 
opportunity for us to do, like, shape, hold, clear, build, and 
transfer. It gives an opportunity to do what I think all of us 
kind of felt intuitively was the way to go on this thing, that 
this is not just about--the insurgents have come up with this 
incredible ability--going all the way back probably to General 
Jaap and even before him, to figure out, how do you fight these 
wars, and we haven't really come up with a solution, and I 
think we finally have, and it makes sense.
    So as I look down the road, I see military units showing up 
in Afghanistan having spent months, if not years, training 
together. Everybody has a specialty. Everybody knows what they 
are doing. A big change in the last year and a half. A year 
ago, the civilians would show up in Kabul or in Baghdad, meet 
each other for the first time, and then go out, be in a 
Provincial Reconstruction Team (PRT) or operating with the 
military, and we made a big change. Camp Atterbury, great idea. 
But we are still way behind, or, Ambassador Kennedy, I mean, 
this is your opinion. We are way behind the thoughtfulness that 
goes into what the military operation does. Is that fair to 
say?
    Ambassador Kennedy. I think you are correct, very correct, 
Senator Kaufman. We are behind, and I think we are addressing 
that in two ways.
    One is the training dimension that you have. Thanks to the 
support of the Congress, the State Department, which was almost 
a hollowed out force for the last decade or two, has been given 
additional positions that we can build up the complement of 
people who have language training, and I know this is something 
that both the Government Accountability Office and this 
Subcommittee has looked at. We now have the training 
complement, so we are pushing additional personnel to get them 
the Arabic, Dari, Farsi, Urdu languages, so the training 
complement.
    Second, we have an additional complement to send additional 
State Department people to the military training schools, 
whether it be Leavenworth, Carlisle, or Montgomery. That 
working with the military at the mid-career and at the upper 
levels, as well, are incredibly important to build that 
comprehension. It is almost a riff on Winston Churchill's quote 
about the American and the English being two people divided by 
a common language. Both our DOD and our colleagues speak 
English, but it is certainly a different dialect.
    Senator Kaufman. Right.
    Ambassador Kennedy. In my service in Iraq, I saw that. So 
by additional language training, by the additional training 
with the military, we were also given additional positions. We 
have expanded, I think it will be almost threefold the number 
of political advisers, State Department personnel attached to 
military units of all sizes. We are doing all that.
    The second big thrust is the Civilian Response Corps that 
we are standing up, a standing corps of individuals on the 
payroll who will be in training, working with their military 
colleagues, and prepared to deploy in units to places. We will 
never be quite the same as the military because what we would 
find in a Haiti suffering from a traumatic natural disaster, 
what we find in a failed state, what we find after some kind of 
other civil insurrection will be very different. So we will 
never be the same. But I think these two efforts pulled 
together have us moving in the right direction with, as you 
noted, sir, great support from Secretary Gates----
    Senator Kaufman. Absolutely.
    Ambassador Kennedy [continuing]. And Admiral Mullen.
    Senator Kaufman. And not only Secretary Gates. He is 
absolutely incredible. I want to tell you, my hat goes off to 
him. One of my hobbies has been organizational theory and how 
you communicate. The way the military has been able to 
communicate to everyone in the theater how important 
counterinsurgency is, that the job is protecting the 
civilians--it is absolutely extraordinary to see for me. Just 
in a short time to turn from a counterterrorist strategy to a 
counterinsurgency strategy and get everybody on the same page 
is truly, in my opinion, remarkable, the ability to do it.
    But I am concerned. The CRC, as you said, with 75 employees 
at some time have been stationed in Afghanistan. I mean, we 
have 100,000 military--we are going to have 100,000 when we get 
fully deployed--100,000 military. Right now, we hope to have 
1,000 civilians in Afghanistan, and I think 400 outside of 
Kabul. It is hard for me still--and I know this is not what you 
want, but I am just saying, we still have a long way to go in 
my opinion when you see--and you are absolutely right about 
speaking a different language. I mean, the kind of person that 
is drawn to the military doesn't have the same kind of interest 
as the person that is drawn into the State Department.
    So that brings me to the next point, which is recruiting. A 
lot of times we have been doing this by detailing people. My 
favorite is Agriculture. I know a lot of folks that work in the 
Department of Agriculture. They didn't pick the Department of 
Agriculture because they wanted to go to a foreign country and 
learn a foreign language. It is a totally different mindset. So 
going to the Department of Agriculture to try to get somebody 
to go to Afghanistan and work with the farmers in Afghanistan 
is difficult.
    And in terms of recruiting, let me ask this, especially to 
Ambassador Kennedy and Mr. Berry. What are we doing in terms of 
recruiting so that we can get folks who come with an aptitude 
and an interest in serving overseas in tough areas? Is that 
affecting how we are recruiting folks for these positions?
    Mr. Berry. Senator, I will lead off, and then I will, if it 
is OK, lateral to Ambassador Kennedy.
    Senator Kaufman. Right.
    Mr. Berry. We are fortunate in that so many men and women 
come into the civil service motivated by the desire to do 
good----
    Senator Kaufman. Absolutely.
    Mr. Berry [continuing]. And who do so oftentimes 
recognizing the incredible risks they face--our colleagues, for 
example, in the Internal Revenue Service who just suffered a 
loss in Texas, as we all are sadly aware of. This risk is high 
oftentimes whether you are in a combat zone or not.
    And so the good news is that we have been very fortunate to 
identify those areas that are of most need, of benefit to the 
State Department and DOD in terms of addressing the issues that 
nest within the strategy that you have been referring to. And 
we have been very successful so far, to date, and I hope we 
will always continue to be so, of approaching people with the 
desired skills that fit in with that strategy and asking them 
to step up and serve their country in this special way. And the 
good news is we have been able to meet the need to date. We 
recognize it is an extra burden. It is an extra imposition. But 
fortunately, people have been willing to step up and accept 
that responsibility.
    But as to the specifics of it, I think it would be good if 
Ambassador Kennedy explained a little bit more for you how that 
goes.
    Senator Kaufman. I am anxious to hear this, but if this 
works right, what we have done now is just a mere pittance in 
terms of the numbers that I think we are going to have to have. 
We are faced with a counterinsurgency strategy for the next 10 
or 15 years. We are going to need a lot of folks. And I am 
concerned about the Standby Civilian Response Corps in terms of 
the number of employees. I am concerned there are only 75. I am 
concerned about and I know about the reserve. I am doing the 
training, but I think we have to have some idea, some 
recruiting thing that goes beyond the numbers they are 
recruiting right now, and that is the only point I am making.
    Mr. Berry. I think one of the key points why this 
legislation will be so important, Senator, is certainly working 
against us--I think the willingness to serve their country----
    Senator Kaufman. Right.
    Mr. Berry [continuing]. And even put themselves at 
additional risk was not as big a concern as the financial 
hardship that their family was going to be placed under. And so 
this proposal, I think, will take that off the table.
    Senator Kaufman. Right.
    Mr. Berry. And so it will allow our recruitment efforts to 
go forward in a much stronger way and it removes one of the 
greatest barriers we had, quite frankly, which was not only 
were we asking them to put themselves in greater harm, we were 
going to financially disadvantage them.
    Senator Kaufman. I totally, absolutely agree.
    Mr. Berry. And so I think that is why I believe sort of one 
of the most important things in this proposal is ensuring that 
they can retain their locality pay and not lose that. So that 
is going to, I think, be a great relief to a number of civil 
servants as they are considering and making this decision.
    But you are exactly right. We are going to have to wrestle 
with this recruitment issue because the numbers are going to 
grow. We are probably going to be looking at a significant 
increase in these numbers over the years, and that is really 
determined and set by the State Department and the Defense 
Department and we will work, to the extent that we can, to help 
them in terms of that recruitment outreach.
    Senator Kaufman. Great. Ambassador Kennedy.
    Ambassador Kennedy. Thank you, Senator. I think there are 
sort of three dimensions I would like to quickly address. The 
first is that the Civilian Response Corps (CRC) just received 
its full authorization funding----
    Senator Kaufman. Right.
    Ambassador Kennedy [continuing]. Just a mere 18 months ago. 
We are in the process of building it up to the authorized 
strength of over 2,000, 2,250 for the active and the Standby 
Corps, and we are continuing to seek Congressional approval and 
funding for the Reserve Corps, as well. So we are building up 
the Civilian Response Corps to do exactly what you say and we 
believe will have to be done in the future.
    In the interim, we have already deployed--I think we had 
the other day 1,074 civilian employees of the State Department 
and related agencies, excluding those who are directly 
supporting. We managed to put that together and we are planning 
another several hundred to be deployed this fiscal year. We 
know we can do it. So we are going that way.
    The other agency that has to be addressed is USAID.
    Senator Kaufman. Absolutely.
    Ambassador Kennedy. A year and a half ago, USAID was down 
to 1,400 Foreign Service personnel, which is a shadow of what 
it once was in the Vietnam era. Thanks to the efforts of 
Secretary Clinton supported by the Congress, we are en route to 
doubling the size of USAID, getting them up to 2,800 people. We 
believe that will present us with an incredibly more robust, 
deployable, trained, interested, capable cadre to partner with 
the U.S. military in these areas.
    On the State Department side, we still have the diplomatic 
mission, but it is interesting that we see the recruitment of 
the State Department morphing to an older population, average 
age now in the young 30s, large numbers of former military 
starting a second career, individuals who had worked at non-
governmental organizations, as former Peace Corps volunteers, 
and former AmeriCorps volunteers. I think, also, giving the 
State Department a new inherent capability from the strength 
and the skills that these individuals are bringing to the 
Department. So one day they are a diplomat in a nice 
assignment----
    Senator Kaufman. Right.
    Ambassador Kennedy [continuing]. And the next year, the 
next day, they are part of a contingent of individuals deployed 
either with or in support of the Civilian Response Corps or 
working with our DOD colleagues on a district team in 
Afghanistan.
    And last, though I know that individuals from the 
Department of Agriculture, the Department of Interior, or 
Department of Energy did not join those agencies to be deployed 
overseas, as Director Berry has said and as I have seen it in 
my own experience in Iraq, their willingness to step forward 
and answer the call and bring those specialized skills, whether 
it be in agriculture or forestry, fisheries, electricity, to 
the U.S. call is truly heartwarming and truly essential to get 
the mission done that you rightly cite.
    Senator Kaufman. The Chairman and I will put our record up 
against anyone in terms of our high esteem for Federal 
employees. I mean, we both believe that one of the most 
misunderstood things in America is the absolutely incredible 
quality of our Federal employees. They are absolutely great. 
And I think that this is a system that will work.
    I am not from the State Department or USAID, we are going 
to do fine there, I think. We have people. We have to get more. 
As I said, Secretary Gates is a big help in this. We have to 
get USAID back so we don't have as many contract employees and 
we have full-time employees. Absolutely right.
    I am thinking more about the specialties in terms of we are 
going to have to ramp up a lot. Now, I am not saying the 
Department of Agriculture, they are any less--that they are 
more risk averse or anything like that. It is just in your DNA, 
kind of self-selecting, just like the difference between the 
United States and England and just the same between DOD folks 
and Department of State folks.
    And one of the things I think we really have to do--General 
McChrystal talks about government in a box, and I know a lot of 
people are offended by that, but it is a good word. He talks 
about, well, when we get in Marja, we drop government in a box. 
When we get to Kandahar City, we are going to drop government 
in a box. And I know it, and I know why people have said it is 
a good thing. It is a good way to kind of approach the problem.
    When you say, OK, what is going to be in the box? Now, we 
are going to have some State folks that are in historic State 
roles. We are going to have some USAID folks with historic 
State roles. We have to get more of those if you are trying to 
fill up the boxes. Then we have all these specialties.
    One of my personal things that we have to get straight--and 
there are people at the State Department that can do this--but 
I think it takes a different state of mind. Right now in 
Afghanistan, the governors have no staff. If you are the 
Governor of Helmand Province, Mengel, you have no staff. They 
send you out there. You are appointed. You go.
    Well, if you are trying to be a governor in a state like 
Helmand, you need some political advice. I mean, you need 
somebody whispering in your ear that has had some experience or 
has some training or has some interest in the kind of the 
unique problems of trying to run this. During the Second World 
War, we sent groups as we moved across Italy and we moved 
across Europe. We would leave behind civilian government in a 
box. We would go to these little towns and we would say, OK, we 
are moving on, but here are a bunch of folks that know how to 
run every thing. They know how to set the water coming in. They 
know how to do the agriculture. They know how to do the police 
department. They know how to do the fire department. That is 
really the way it worked.
    And I am just saying, we are talking about a whole 
different size of this thing. The size of this thing is going 
to be gigantic, and I see the day when it is not going to be 
one-for-one with military and civilians, but it is going to be 
a lot more civilians now. And that is all I am just saying.
    In terms of recruiting, in terms of training, we have done 
a lot over the last little bit. I am just saying, I think we 
have to turn our eyes to that, and I want to thank the four of 
you for your service and what you are doing. I think America is 
truly fortunate and I think that it shows the quality of 
America in the quality of people that are willing to serve for 
America, so thank you.
    Mr. Berry. Thank you.
    Ambassador Kennedy. Thank you, Mr. Chairman.
    Senator Kaufman. Thank you.
    Senator Akaka. Thank you very much, Senator Kaufman.
    Director Berry, the Federal Employees Compensation Act 
(FECA), was designed to provide compensation for occupational 
injuries but may not be well suited for the types of traumatic 
injuries that workers could receive in conflict zones. Your 
legislative proposal would provide for a new payment for 
traumatic injuries similar to what service members receive and 
would amend FECA to allow a longer period of salary payments 
for employees who suffer traumatic injuries.
    Will you please discuss the proposed changes and any other 
recommendations you may have to ensure that workers with 
traumatic injuries get the services they need.
    Mr. Berry. Mr. Chairman, I thank you, and that is a 
critical element of this package. The proposal that you will be 
soon receiving does provide for a traumatic injury gratuity. It 
mandates the payment similar to the military benefit for 
traumatic injury that is received while serving in a designated 
zone of armed conflict. And so we will be proposing amendments 
that would accomplish and ensure that any civilian that would 
suffer that would be treated consistently.
    Mr. Chairman, part of this proposal waives the premium pay 
cap and aggregate pay limitations. And so now sometimes where 
on the civilian side, if you had suffered an injury, even if 
you were entitled to payments, the pay cap would prevent you 
from receiving them. What we are doing is lifting that pay cap 
to do that.
    Finally, I would like to recommend or bring to your 
attention, Mr. Chairman, a continuation of pay in that we will 
provide 45 days to file a claim after you have terminated your 
assignment into the zone of armed conflict or returned to the 
United States, whichever occurs last. Thirty days is the 
current standard. We will be extending that under this proposal 
to 45 days. The continuation of pay will be furnished for a 
period not to exceed 135 days. That is an increase over the 
current limitation of 45 days.
    So you can see we have tried to significantly enhance these 
benefits, recognizing the importance of this issue, and Mr. 
Chairman, we appreciate the leadership that you and Senator 
Kaufman have provided on this issue time and time again, not 
only here but in sick leave for Federal employees in dealing 
with an injured service member in the active military. You just 
time and time again step up to the plate on these issues.
    So I am hopeful, and I am very pleased that the Departments 
of Defense, State, OPM, OMB, and Labor have reached agreement 
on recommending to you these enhanced benefits and I hope the 
Congress can expeditiously put them into law so that we will be 
able to get them into play.
    Senator Akaka. Thank you.
    Ambassador Kennedy, DOD civilian employees are currently 
required to undergo both pre- and post-deployment health 
assessments to identify conditions that may have resulted from 
deployment. The State Department has required only pre-
deployment assessments and has indicated that post-deployment 
screenings would be implemented this year.
    Have these post-deployment screenings been implemented, and 
what are you doing to ensure that civilians who serve under a 
Chief of Mission's authority complete this assessment?
    Ambassador Kennedy. I am pleased to report, Mr. Chairman, 
that the post-deployment medical screening process has begun. 
We started out at the post as part of their departure from the 
combat zone. The State Department follows it up with its 
employees for those employees who might have, in effect, 
escaped that screening. We follow it up to their next post.
    And for the majority of our employees who are deployed in 
these areas, Mr. Chairman, who are Foreign Service employees, 
we have a regularly scheduled series of medical exams that you 
take before you go on to subsequent assignments. And so we have 
that built into the process so that Dr. Yun and his colleagues 
then pick that up before a subsequent assignment or between 
assignments to make sure that we do it. We send the screening 
out. It is called the Primary Care PTSD Screen. It is a 
standard practice we have adopted from the Veterans' 
Administration and we push it out to the employees and then we 
attempt to get that screening back from them, sir.
    Senator Akaka. Dr. Stanley, DOD has identified some 
requirements for post-deployment health assessments. I 
understand that a unit deployment manager is responsible for 
notifying deployed civilians when they are due to complete 
their post-deployment health reassessment. How are these 
managers ensuring that all DOD civilians complete this 
reassessment?
    Dr. Stanley. Mr. Chairman, I am aware of the caseworkers 
that are assigned, what their responsibilities are. The 
operative word is ``all.'' I am confident that the process is 
in place. It is supposed to be working. I am going to have to 
lean back here and find out. But the question of ``all'' has 
always been a problem for me personally, because when you start 
saying ``all,'' that is like it is absolutely perfect, and 
there are some aspects of what we are talking about here, even 
as we work on doing this uniformly with our State Department 
and Federal employees in general that I would certainly have to 
take some time to look at and make sure that all are being 
administered properly as they go through post-deployment. I 
hope that is clear to the Chairman.
    Senator Akaka. Yes. Well, I, too, look forward to your 
attempt to try to get all of them.
    Dr. Stanley. Yes.
    Senator Akaka. Hopefully, we have a process where we can 
try to do that.
    Dr. Stanley. Yes.
    Senator Akaka. Dr. Stanley and Ambassador Kennedy, Japanese 
Americans serving in the U.S. military were critically 
important in reconstructing Japan in the aftermath of World War 
II, and when I mention that, I am thinking of General MacArthur 
and his leadership of U.S. forces in Japan during that period 
of time. They were able to use their background and knowledge 
of Japanese culture to build trust with the people and the 
government of Japan.
    Such an approach may also be useful for, in this case, 
Afghanistan. Are your departments deploying civilians of Afghan 
descent to Afghanistan to support the reconstruction and 
stabilization efforts? Dr. Stanley.
    Dr. Stanley. Mr. Chairman, I know that we have people of 
Afghan descent who are deployed. We are required to base in 
terms of how we determine who goes, it is expeditionary nature 
and who we pick to go, and the mission you are talking about 
would be something that we would be focused on. How many we 
have, how far that goes, I would have to get back to you, but I 
know we have Afghan descent.
    Ambassador Kennedy. Mr. Chairman, I would have to also get 
back to you on gross numbers, but two things, if I might. The 
State Department makes a great effort as part of its recruiting 
effort around the world to attract Americans who speak the 
languages that we are most in need of--Dari, Pashto, Arabic, 
etc., and so we are out there recruiting individuals.
    The State Department also has a bidding system based upon 
assignments, and so anyone who is interested in serving in Iraq 
and Afghanistan, we welcome that service. We have filled every 
single requirement in both Iraq and Afghanistan since the very 
beginning with volunteers, and so the ability for us to attract 
and welcome heritage speakers into the situation is something 
that we most--and we do get volunteers.
    A recent example is we have dispatched a number of Creole-
speaking Americans of Haitian ancestry to bolster our team in 
Port au Prince, and that is the figure and example that comes 
most readily to mind because it is the last major crisis I was 
working on. But we have trained Afghan Americans at our Foreign 
Service Institute and we have deployed them to both Kabul and 
field positions, sir.
    Senator Akaka. In asking this, I want to get to this 
particular question, Dr. Stanley and Ambassador Kennedy. I 
believe that it is very important that U.S. personnel who work 
overseas have a strong understanding of the culture they are 
working in and the ability to speak that language. How are your 
departments addressing or assessing and improving the cultural 
language training that deployed civilians need to be effective? 
Dr. Stanley.
    Dr. Stanley. Yes, Mr. Chairman. First of all, we don't look 
at it just at the deployed civilians, obviously, because we 
have our military that we are using, too. We also are fortunate 
to have probably over 40 percent of our military personnel who 
have now become DOD civilians. We are fortunate that some of 
those are actually native language speakers, so we benefit that 
way, too.
    I would like to take for the record to get back to you with 
specifics on the numbers, the specifics in who we are using in 
different places. We do have deployed civilians who are, in 
fact, trained, who are, in fact, used, but we use them and 
tailor their placement actually based upon the requirements 
that have been determined of how we actually place them. Where 
they are right now in Afghanistan and even Iraq has been--these 
are requirements that are determined by our joint staff as we 
work to support our commanders who are forward deployed. So I 
will get back to you with specifics.
    Senator Akaka. Fine.
    Ambassador Kennedy. Mr. Chairman, we have at Arlington Hall 
Station, Virginia, the National Foreign Affairs Training 
Center. Before we deploy personnel to Afghanistan, and I might 
include Iraq in the report, as well, we do a familiarization 
course taught by individuals who are expert in the area before 
we deploy the personnel there. Additionally, if they are being 
deployed to the field outside of Kabul in Afghanistan, we send 
them to Camp Atterbury in Indiana to work jointly with the 
military there, but also, I think you referred to it, Mr. 
Chairman, in your statement, sort of a familiarization course 
built around a mock-Afghanistan city/town where the population 
is actually Afghan American, so to help people understand the 
cross culture. And this is something the State Department has 
been doing for many years--East Asian studies, African studies, 
Latin American studies. It is in our DNA, and we certainly 
agree, sir, that it is absolutely essential to incorporate.
    The second piece is obviously language. As the GAO has 
noted in the past until recently, the State Department has been 
deficient in language training. We simply did not have 
sufficient resources to pull people off of the line. I mean, 
every State Department person, in effect, up until recently, 
was assigned to a job, and to pull someone off to study 
Chinese, Arabic, Dari, or Pashto, the 2 years that it really 
takes to learn those languages was a price we almost could not 
afford to pay. But thanks to the actions of the Congress 
starting in the fiscal year 2009 authorization bill, we have 
been able to increase significantly our training complement for 
hard languages at the National Foreign Affairs Training Center.
    For example, in Arabic in 2005 and 2006, we were training 
80 to 90 people. This year, we are training 139, which is a 
significant almost doubling that increase. In Dari, it has 
almost doubled, from 15 to 28. In Farsi, doubled from five to 
10. And Urdu, from six to 16. And currently, we have 35 State 
Department employees in Dari training and 21 in Pashto.
    Do I wish it was more? Do I feel that we are doing 
everything we could today in the field? Absolutely not, Mr. 
Chairman. But since it takes at least 1 year and really 2 years 
to get someone fluent in those languages, we are starting way 
behind, but thanks to the assistance of the Congress, we now 
have the resources that we can put people into that language 
training so that we are growing the cadre for the future, and 
then we push them out into those difficult assignments, sir.
    Senator Akaka. Thank you.
    Director Berry, in the past, the circumstances under which 
non-DOD civilians would be eligible for care at military 
facilities following deployment has been unclear. I understand 
that on April 1, 2010, DOD sent a letter to agencies clarifying 
these policies. Do you believe this letter adequately explains 
eligibility for this care, and are there any additional actions 
needed to facilitate non-DOD civilians' access to military 
facilities when appropriate?
    Mr. Berry. Mr. Chairman, I am not familiar with the 
specific details of that letter, so if I could, we would get 
back to you and the Subcommittee on that. And we will 
coordinate with Secretary Stanley to make sure it is up to date 
with your question, sir.
    Senator Akaka. Fine. I would appreciate that.
    Dr. Stanley, the 2010 DOD report to Congress on medical 
care available to deployed civilians states that the Department 
is supporting a presidential memo directing all agencies that 
deploy civilians to a conflict zone to establish an ombudsman 
and FECA advisory programs. What is the status of this 
presidential memo?
    Dr. Stanley. Mr. Chairman, I have to get back to you, to 
take that question for the record.
    Senator Akaka. Thank you so much for that.
    Ms. St. Laurent, GAO found significant shortcomings in 
agencies' ability to identify and track their deployed 
civilians. Would you please elaborate on your findings on this 
issue, as well as why they are significant?
    Ms. St. Laurent. Certainly, Mr. Chairman. Again, we had 
challenges working with each of the agencies to get a complete 
and accurate list of civilians that had been deployed from 2006 
to 2008, and in the process of working with the various 
agencies, we have learned that many of them had to do special 
queries or manually try to reconstruct who had deployed 
overseas. So it was clear to us that there was no one accurate 
tracking system or database that you could easily go to to find 
out how many individuals were deployed.
    DOD did have some processes in place, but again, what we 
found was that they weren't being consistently implemented, and 
we know that DOD is trying to make some further improvements 
and go to a system where they would be relying on basically 
their personnel system to be able to accurately identify 
deployed civilians.
    I think the important thing is that each agency take some 
specific steps to think through what is the most appropriate 
and practical way to develop a reliable, accurate database, and 
it is extremely important in the event that future health 
issues emerge and individuals need to be contacted to deal with 
any potential medical or other issues that could arise as a 
result of deployments.
    Senator Akaka. Thank you.
    Ambassador Kennedy, the issue of tracking civilians also 
applies to the Department of State. Since a large number of 
civilians serve in a country under a Chief of Mission's 
authority, how does the State Department currently identify and 
track all employees deployed to Afghanistan or serving under 
this authority?
    Ambassador Kennedy. Thank you, Mr. Chairman. The State 
Department has implemented what we call an Electronic Country 
Clearance System. That means that civilian employees of any 
government agency going, as you know, sir, out to serve under 
the Chief of Mission prepare this system. They register 
themselves. The e-mail transmission is registered at the State 
Department. It goes out to the post and becomes part of the 
post roster. They make sure that they can be registered for 
housing and for ID cards. So they can literally be met at the 
airport.
    So we use this E-Country Clearance System, and then there 
is a Departure System at the back end to make sure that we have 
what we believe an accurate tracking of everybody who is going 
in and out. I would hesitate under oath to swear that it 
functions at the 100-point-zero-zero percent, but we believe 
that because of the multiple layers we built into it, 
everything from where you sleep to the pass to get into the 
dining hall, that we have done everything we can to track the 
personnel who are traveling to Afghanistan.
    Senator Akaka. Thank you.
    Dr. Stanley, DOD relies on the Joint Personnel Statistics 
System to provide information on its deployed civilians. This 
system provides the most accurate information available for the 
location of deployed civilians when they swipe their 
identification cards. However, if employees do not swipe their 
cards, they are not tracked.
    Have you had problems with civilians not swiping their 
cards, and how are you ensuring that all DOD civilians deployed 
to a conflict zone do swipe their cards so the Department knows 
where they are?
    Dr. Stanley. Yes, Mr. Chairman. We have had problems with 
civilians not swiping their cards. The manual system that you 
have alluded to, the Joint Personnel Statistics System, we are 
actually in the process now of transitioning to an automated 
system. But the operative word here is ``in the process.'' It 
is not there yet, but we are getting there, and so it is 
improving, but it is not perfect yet.
    Senator Akaka. Well, let me ask my final question to 
Ambassador Kennedy. Last December, this Subcommittee held a 
hearing on the challenges facing the State Department's Bureau 
of Diplomatic Security (DS). One particular concern has been 
providing security to our civilians who are serving in areas of 
increased danger. I understand that the military provides 
security for civilians in the field. However, when the military 
begins to leave Afghanistan, a greater security burden will be 
placed on DS.
    How is the State Department planning for this transition?
    Ambassador Kennedy. Mr. Chairman, if I could, let me cite 
the example of Iraq, because at the moment, whereas the 
withdrawal of the Department of Defense personnel from 
Afghanistan is a future event, active planning and withdrawal 
is actually underway in Iraq now and the State Department will 
be staying behind at a number of installations in Iraq after 
the military leaves.
    We are engaged, I think, in that level in three dimensions. 
First of all, we will deploy additional Diplomatic Security 
Special Agents to Iraq as required. We have created and are 
recruiting a new category under the Foreign Service Act, 
Special Protective Services Personnel. These will not be 
Federal Special Agents, but they will be State Department 
employees, military or law enforcement background, who go 
through special training, and they will be deployed to Iraq and 
then obviously to Afghanistan at the time that arrives to 
oversee the contracted workforce.
    There are only some 1,700 Diplomatic Security Federal 
Special Agents in the entire world and we simply do not have 
the capability with Federal employees to match the 82nd 
Airborne or the Fourth Infantry Division. So our plan, Mr. 
Chairman, is to use contractors overseen very specifically and 
very directly by the Diplomatic Security Special Agents or the 
Diplomatic Security Special Protection Personnel.
    The third dimension is we are expanding our aviation 
capability, both rotary wing and fixed wing, in Iraq and in 
Afghanistan to be able to move personnel around the country in 
a safe and secure means using aviation assets in Iraq, at 
least, that today are owned by the U.S. Government, but which 
are crewed by contracted personnel. So this is something that 
Eric Boswell, the Director of the Diplomatic Security Service, 
has on his plate. He and I must talk at least once a day about 
our efforts in Iraq, and we see the model that we are putting 
in place in Iraq will be, with obviously changes from the 
lessons we learned, the model that we will put into place in 
Afghanistan when that time comes, sir.
    Senator Akaka. Well, let me ask a few more questions. Dr. 
Stanley and Ambassador Kennedy, both the Department of State 
and DOD run their own pre-deployment training programs for 
civilians who will participate in contingency operations, 
reconstruction and stabilization efforts, and other key 
overseas operations.
    To what extent do your departments coordinate in developing 
and executing this training in order to maximize its efficiency 
and effectiveness? Dr. Stanley.
    Dr. Stanley. Mr. Chairman, I believe we coordinate. I know 
we work together. Even the legislation that is proposed 
enhances that, or works toward better coordination with that. 
Our training is open to State Department and other Federal 
employees, in general, and Federal employees basically go 
through our training.
    Now, having said that, I am a kind of person that always 
believes that whatever you do, you can do better, and so by 
working together, as we work together, I believe that we move 
in that direction.
    Senator Akaka. Mr. Ambassador.
    Ambassador Kennedy. Mr. Chairman, I would certainly agree 
with my colleague. Anything one can do can always be done 
better. I think there are two dimensions to this.
    We are very pleased with our joint efforts with our 
Department of Defense colleagues at Camp Atterbury, Indiana. 
This is a major step forward. It has the facility of creating 
the environment of Afghanistan, very important, coupled with 
the ability to work with members of the Indiana National Guard 
on that all-important State and Defense Department cooperation 
in the field. So that partnership exists, I think, to a high 
degree.
    On the other side, we have large numbers of Department of 
Defense personnel, usually from the Defense Intelligence 
Agency, but also from the Defense Security Cooperation Agency 
(DSCA) and others, who come to the State Department's National 
Foreign Affairs Training Center at Arlington Hall to take the 
cross-cultural courses we offer, to take the language courses 
that we offer, to take a course that we just call ``Working at 
an Embassy'' to acquaint the Department of Defense personnel 
about what it is like to work at an embassy if they are 
assigned closely to work with those people.
    We also run on our own, because the security training that 
we give civilians is different from the security training that 
the military gives its personnel. I will train a civilian to 
shoot. I am not going to give him or her a gun unless they are 
a qualified law enforcement professional. But we train them in 
driving skills for an emergency. We train them in the use of 
firearms in extremis, if their security personnel are down. We 
train them in first aid so that they can act as sort of a first 
echelon emergency medical technician or trauma, so that they 
are prepared for that regard.
    So we do have these packages and we work very closely with 
the Department of Defense, and, as I said, our National Foreign 
Affairs Training Center is open to any State Department 
employee, and we are also open to any U.S. Government civilian 
employee from the Defense Department or any other agency. And 
our National Foreign Affairs Training Center works very closely 
with OPM and the Department of Defense--regular consultations 
and regular planning to make sure that we are going forward in 
the right direction.
    I guess the last point I might make is we also send both 
active duty and retired State Department personnel to a variety 
of military training exercises so they can bring the 
ambassadors' perspective, the country team perspective, and the 
overseas perspective to exercises that the 82nd Airborne or 
U.S. Southern Command (USSOUTHCOM) or USCENTCOM might be doing, 
again, to build the common structures that we need to go 
forward.
    Senator Akaka. Thank you.
    Ambassador, you testified that your Family Liaison Office 
provides families of employees serving on an unaccompanied tour 
with a single point of contact for information, emotional 
support, and assistance. Does a Family Liaison Office provide 
support to the families of Federal civilians who are not State 
Department employees but serve under a Chief of Mission's 
authority?
    Ambassador Kennedy. Our Family Liaison Office does help the 
personnel of other agencies, and we are, in fact, in discussion 
with and we will continue that discussion with other agencies. 
As more and more civilians from other agencies are deployed 
overseas, we need to beef up that office, and so we will be 
engaging in discussions with them about helping contribute to 
that effort. But our Community Liaison Office at post and our 
Family Liaison Office in Washington is very much involved in 
outreach to other agencies. Could we do better? Absolutely, 
yes. Is the foundation there? Equally, yes.
    Senator Akaka. Ambassador Kennedy, the State Department's 
Afghanistan and Pakistan Regional Stabilization Strategy calls 
for creating a cadre of civilian experts on Afghanistan and 
Pakistan with personnel who have completed tours in those 
countries. Could you please comment on how the Department will 
assemble and sustain this group of experts?
    Ambassador Kennedy. Mr. Chairman, I am going to have to get 
back to you for the record, sir. I know that the State 
Department makes every effort to convince State Department 
employees who have served in a region of the world to return to 
that region of the world. In fact, we offer language incentives 
for people to keep that up. So we have internal to our 
processes an effort to recruit people to go back again at 
successively higher levels of expertise.
    I think what you may be referring to is a program that we 
have been in discussion with Special Representative Ambassador 
Holbrooke, about creating this corps of specialists, and 
particularly in Afghanistan. Let me get the details of that for 
the record. It is a program that the State Department is 
supporting.
    Senator Akaka. Yes. Ambassador, I understand that some 
agencies will have to greatly increase their presence in the 
Standby CRC to meet the fiscal year 2010 goals. For instance, 
the Department of Homeland Security has zero participants in 
the Standby Corps and a fiscal year 2010 goal of 28. What 
actions will the State Department take in cooperation with 
other agencies to meet these staffing goals?
    Ambassador Kennedy. Mr. Chairman, John Herbst, who is the 
Director for the Secretary of the Civilian Response Corps, is 
in, I would almost say, daily consultations, communications, 
task forces, and other working groups with every agency across 
the government. Obviously, this is something, Mr. Chairman, 
that is very new to the government, the idea of pooling 
civilian resources in the way the military can assemble a task 
force composed of Army, Navy, Air Force, and Marine, and as 
appropriate, Coast Guard service members.
    This is something very new. We just received the 
authorization to establish this only 18 months ago. Some 
agencies have been faster than others in signing up and 
contributing personnel. So it is very much a work in progress 
and is something that Mr. Herbst spends all day long working 
on.
    Senator Akaka. Well, I would like to thank all of our 
witnesses for being here today. Our Federal civilians have a 
vital role in supporting the U.S. mission in Afghanistan as 
well as other areas facing crises around the world. I am 
encouraged by the efforts of DOD and the State Department to 
strengthen training for these civilians. I am also pleased that 
your agencies have worked so diligently to bring about greater 
consistency for benefits and compensation for deployed 
civilians.
    The hearing record will be open for 2 weeks for additional 
statements or questions other Members may have.
    Really, this has been a great hearing for me and for the 
Subcommittee and I look forward to working with you in case 
there is legislation that is necessary to bring these 
improvements about. We can work together to do that. We are 
doing all of this to try to help our civilian force to continue 
to provide the kind of service they do for our great country.
    Mr. Berry. Mr. Chairman, if I could, before we end----
    Senator Akaka. Director Berry.
    Mr. Berry. With your indulgence, sir, I would just like to 
call on and recognize one person who has done an incredible job 
for which we could not have brought you the successful proposal 
we did without him. He is our White House Fellow. He is an 
active Major in the U.S. Army. His name is Ken Robbins. He is 
with me today. He has done an incredible job working with our 
career people at the Office of Personnel Management, Jerry 
Mikowicz and others. But I believe it was his leadership that 
helped to really bring this home, and I want to personally 
thank him, not only for his service to our country and in 
active duty military, but in his incredible leadership this 
year as our White House Fellow.
    Senator Akaka. Thank you very much. Mr. Robbins, will you 
please rise?
    [Applause.]
    Again, let me also thank you for your service to our 
country. We look forward to your further service as we try to 
improve the quality of medical benefits and compensation that 
we owe our civilian workers. So thank you very much.
    With that thank you, this hearing is adjourned.
    [Whereupon, at 4:16 p.m., the Subcommittee was adjourned.]

                            A P P E N D I X

                              ----------                              

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]




                                 <all>

</pre></body></html>
